               

               

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
               

               



                     Fiscal Years 2011 and 2010 

                     Financial Statements for the 

                     Pesticide Registration Fund 

                     Report No. 12-1-0522                    June 6, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Paul Curtis
                                                   Robert Smith
                                                   Bill Samuel
                                                   Sabrina Berry
                                                   Mairim Lopez
                                                   Sheila May
                                                   Demetrios Papakonstantinou
                                                   Cynthia Poteat
                                                   Myka Sparrow
                                                   Alexandra Zapata-Torres




Abbreviations

ARS           Accounting and Reporting Section
EPA           U.S. Environmental Protection Agency
EPM           Environmental Programs and Management
FIFRA         Federal Insecticide, Fungicide, and Rodenticide Act
FMFIA         Federal Managers’ Financial Integrity Act
FY            Fiscal Year
OIG           Office of Inspector General
OMB           Office of Management and Budget
PRIA          Pesticide Registration Improvement Act
PRIA 2        Pesticide Registration Improvement Renewal Act




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-1-0522
                                                                                                          June 6, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Fiscal Years 2011 and 2010 Financial
The Pesticide Registration
                                    Statements for the Pesticide Registration Fund
Improvement Act (PRIA)
requires that we perform an          Opinion
annual audit of the Pesticide
Registration Fund (known as         We rendered an unqualified, or clean, opinion on EPA’s Pesticide Registration
the PRIA Fund) financial            Fund financial statements for fiscal years 2011 and 2010, meaning that they were
statements.                         fairly presented and free of material misstatement.

Background                           Internal Control Material Weakness Noted

To expedite the registration of     We noted one material weakness in internal controls. EPA materially understated
certain pesticides, Congress        the PRIA payroll and benefits payable and related payroll expenses included in
authorized the U.S.                 fiscal year 2011 gross costs. The Agency’s practice of transferring employees and
Environmental Protection            expenses and liabilities from PRIA to the Environmental Programs and
Agency (EPA) to assess and          Management Fund for cash flow reasons led to the understatement. The transfer
collect pesticide registration      removed the base upon which the leave accrual and benefits payable amounts are
fees. The fees collected are        calculated. The fiscal year 2010 accruals for PRIA were $239,000 while the fiscal
deposited into the PRIA Fund.       year 2011 accruals were $8,000. Understatements could impact the opinion on
The Agency is required to           the financial statements and reliance on reported PRIA financial information.
prepare financial statements
that present financial               Internal Control Significant Deficiency Noted
information about the PRIA
Fund. PRIA also requires the        We noted one significant deficiency in internal controls. EPA did not record
establishment of decision time      accounts receivable for a PRIA fee until the payments were 18 months overdue.
review periods for pesticide        During our fiscal year 2011 allowance for doubtful accounts review, we found a
registration actions, and           PRIA receivable for which the finance center was unable to record an allowance
requires the Office of Inspector    because there was no accounting model for a PRIA allowance for doubtful
General to perform an analysis      accounts.
of the Agency’s compliance
with those review periods.           Compliance with Decision Time Review Periods

                                    The Agency was in compliance with the statutory decision time frames.

For further information, contact     Planned Agency Corrective Actions
our Office of Congressional and
Public Affairs at (202) 566-2391.   The Agency agreed with our findings and recommendations. The Agency
                                    corrected the payroll and benefit payable amounts and indicated it will monitor
The full report is at:
www.epa.gov/oig/reports/2012/       the PRIA benefit accrual at year-end. The Agency will develop policies and
20120606-12-1-0522.pdf              procedures for PRIA accounts receivables and has established general ledger
                                    posting models for PRIA allowances. The Agency’s complete response is in
                                    appendix B to this report. We agree with the Agency’s corrective actions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           June 6, 2012

MEMORANDUM

SUBJECT:	 Fiscal Years 2011 and 2010 Financial Statements for the
          Pesticide Registration Fund
          Report No. 12-1-0522


FROM:          Arthur A. Elkins, Jr.

TO:	           Jim Jones
               Acting Assistant Administrator for Chemical Safety and Pollution Prevention

               Barbara Bennett         

               Chief Financial Officer



Attached is our report on the U.S. Environmental Protection Agency’s (EPA’s) fiscal years 2011
and 2010 financial statements for the Pesticides Registration Fund, conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This audit report
represents the opinion of the OIG, and the findings in this report do not necessarily represent the
final EPA position. EPA managers, in accordance with established EPA audit resolution
procedures, will make final determinations on the findings in this audit report. Accordingly, the
findings described in this audit report are not binding upon EPA in any enforcement proceeding
brought by EPA or the Department of Justice. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. You should track progress of your corrective actions in the Management Audit Tracking
System.

If you or your staff have any questions regarding this report, please contact Melissa Heist
at (202) 566-0899 or Heist.Melissa@epa.gov, or Paul Curtis at (202) 566-2523 or
Curtis.Paul@epa.gov.
Fiscal Year 2011 and 2010 Financial Statements                                                                           12-1-0522
for the Pesticide Registration Fund


                                    Table of Contents
Inspector General’s Report on the Fiscal Years 2011 and 2010 

Financial Statements for the Pesticide Registration Fund 


   Opinion on the PRIA Fund Financial Statements..........................................................                      1


   Evaluation of Internal Controls ......................................................................................       1


   Tests of Compliance With Laws and Regulations .........................................................                      3


   Management’s Discussion and Analysis Section of the Financial Statements .............                                       4


   Prior Audit Coverage.....................................................................................................    4


   Agency Comments and OIG Evaluation .......................................................................                   4



Attachments 


   1      Material Weakness ..............................................................................................      6


          PRIA Payroll and Benefits Payable Are Understated ...........................................                         7


   2      Significant Deficiency ........................................................................................       9


          EPA Should Identify When Pesticide Registration Improvement 

          Renewal Act Fees Should Be Recorded as Accounts Receivables .....................                                    10 


   3      Status of Recommendations and Potential Monetary Benefits……………….. 12 



Appendices

   A      Fiscal Years 2011 and 2010 PRIA Financial Statements

   B      Agency’s Response to Draft Report

   C      Distribution
               Inspector General’s Report on the 

    Fiscal Years 2011 and 2010 Financial Statements for the 

                  Pesticide Registration Fund


            The Administrator
            U.S. Environmental Protection Agency

            We have audited the Pesticide Registration Fund (known as the PRIA Fund)
            balance sheet as of September 30, 2011 and 2010, and the related statements of
            net cost, changes in net position, and budgetary resources for the years then
            ended. These financial statements are the responsibility of the U.S. Environmental
            Protection Agency (EPA) management. Our responsibility is to express an
            opinion on these financial statements based upon our audit.

            We conducted our audit in accordance with the generally accepted auditing
            standards; the standards applicable to financial statements contained in
            Government Auditing Standards, issued by the Comptroller General of the United
            States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as Amended. These standards
            require that we plan and perform the audit to obtain reasonable assurance as to
            whether the financial statements are free of material misstatements. An audit
            includes examining, on a test basis, evidence supporting the amounts and
            disclosures in the financial statements. An audit also includes assessing the
            accounting principles used and significant estimates made by management, as
            well as evaluating the overall financial statement presentation. We believe that
            our audit provides a reasonable basis for our opinion.

            In our opinion, the financial statements, including the accompanying notes,
            present fairly, in all material respects, the assets, liabilities, net position, net costs,
            changes in net position, and budgetary resources of the PRIA Fund, as of and for
            the years ended September 30, 2011, and 2010, in conformity with accounting
            principles generally accepted in the United States of America.

Evaluation of Internal Controls

            As defined by OMB, internal control, as it relates to the financial statements, is a
            process, affected by the Agency’s management and other personnel, that is
            designed to provide reasonable assurance that the following objectives are met:

                    Reliability of financial reporting – Transactions are properly recorded,
                    processed and summarized to permit the preparation of the financial
                    statements in accordance with generally accepted accounting principles,
                    and assets are safeguarded against loss from unauthorized acquisition, use,
                    or disposition.


12-1-0522                                                                                             1
                   Compliance with applicable laws, regulations, and government-wide
                   policies – Transactions are executed in accordance with laws governing
                   the use of budget authority, government-wide policies, laws identified by
                   OMB, and other laws and regulations that could have a direct and material
                   effect on the financial statements.

            In planning and performing our audit, we considered EPA’s internal control over
            Pesticide Registration Improvement Act (PRIA) financial reporting by obtaining
            an understanding of the Agency’s internal controls, determining whether internal
            controls had been placed in operation, assessing control risk, and performing tests
            of controls. We did this as a basis for designing our auditing procedures for the
            purpose of expressing an opinion on the financial statements and to comply with
            OMB audit guidance, not to express an opinion on internal control. Accordingly,
            we do not express an opinion on internal control over financial reporting or on
            management’s assertions on internal controls included in Management’s
            Discussion and Analysis. We limited our internal control testing to those controls
            necessary to achieve the objectives described in OMB Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as Amended. We did not test all
            internal controls relevant to operating objectives as broadly defined by the Federal
            Managers’ Financial Integrity Act of 1982 (FMFIA), such as those controls
            relevant to ensuring efficient operations.

            Our consideration of the internal controls over financial reporting would not
            necessarily disclose all matters in the internal control over financial reporting that
            might be significant deficiencies. Under standards issued by the American
            Institute of Certified Public Accountants, a significant deficiency is a deficiency,
            or combination of deficiencies, in internal controls that is less severe than a
            material weakness, yet important enough to merit attention by those charged with
            governance. A material weakness is a deficiency, or combination of deficiencies,
            in internal controls, such that there is a reasonable possibility that a material
            misstatement of the entity’s financial statements will not be prevented, or detected
            and corrected in a timely basis. Because of inherent limitations in internal
            controls, misstatements, losses, or noncompliance may nevertheless occur and not
            be detected. We noted a matter involving the internal controls and their operations
            that we considered to be a material weakness and another matter involving the
            internal control and their operations that we consider to be a significant
            deficiency.

            Material Weakness: PRIA Payroll and Benefits Payable Are
            Understated

            EPA materially understated the PRIA Fund’s payroll and benefits payable, and
            related payroll expense included in fiscal year gross costs. The Agency’s practice
            of transferring employees and related expenses and liabilities from PRIA to the
            Environmental Programs and Management (EPM) Fund for cash flow reasons led
            to the understatement. Just prior to year-end, the Office of Pesticide Programs, in



12-1-0522                                                                                       2
            the Office of Chemical Safety and Pollution Prevention, transferred all employees
            from PRIA to EPM. On average, 59 employees were assigned to PRIA throughout
            fiscal year 2011. The transfer removed the base upon which the leave accrual and
            the benefits payable amounts are calculated. As a result, payroll and benefits
            payable were materially understated. The fiscal year 2010 accruals for PRIA were
            $239,000 while the fiscal year 2011 accruals were $8,000.

            Significant Deficiency: EPA Should Identify When Pesticide
            Registration Improvement Renewal Act Fees Should Be Recorded as
            Accounts Receivables

            EPA did not record accounts receivable for a PRIA fee until the payments were
            18 months overdue. The program office sent the request to the Cincinnati Finance
            Center after the collection was overdue. By not tracking or recording the request
            for payment of a government debt in the financial system, EPA may be
            understating its accounts receivable in its annual financial statements. During our
            fiscal year 2011 allowance review, we found a PRIA receivable totaling $1,090
            for which the finance center was unable to record an allowance because there was
            no accounting model for a PRIA allowance for doubtful accounts.

            Comparison of EPA’s FMFIA Report with Our Evaluation of Internal
            Controls

            OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
            as Amended, requires us to compare material weaknesses disclosed during the
            audit with those material weaknesses reported in the Agency’s FMFIA report that
            relate to the financial statements and identify material weaknesses disclosed by
            the audit that were not reported in the Agency’s FMFIA report.

            For financial statement audit and financial reporting purposes, OMB defines
            material weaknesses in internal control as a deficiency or combination of
            deficiencies in internal control, such that there is a reasonable possibility that a
            material misstatement of the financial statements will not be prevented or detected
            and corrected on a timely basis. The Agency did not report any material weakness
            for fiscal year 2011 impacting the PRIA Fund; however, we identified a material
            weakness with the Agency’s reporting of payroll and benefits payable. Details
            concerning this material weakness are in attachment 1.

Tests of Compliance With Laws and Regulations

            In accordance with PRIA, the Administrator is required to publish a schedule of
            decision time review periods for pesticide registration actions and corresponding
            registration fees in the Federal Register. Decision time review periods are
            specified time limits for the Agency to grant or deny pesticide registrations. PRIA
            also requires the Office of Inspector General (OIG) to perform an analysis of the




12-1-0522                                                                                     3
            Agency’s compliance with decision time review periods. The Agency was in
            compliance with the statutory decision time frames.

            As part of obtaining a reasonable assurance about whether the Agency’s financial
            statements are free of material misstatement, we tested compliance with those
            laws and regulations that could either materially affect the PRIA financial
            statements or that we considered significant to the audit. The objective of our
            audit, including our tests of compliance with applicable laws and regulations, was
            not to provide an opinion on overall compliance with such provisions.
            Accordingly, we do not express such an opinion. We did not identify any
            noncompliances that would result in a material misstatement to the audited
            financial statements.

Management’s Discussion and Analysis Section of the Financial Statements

            Our audit work related to the information presented in the Management’s
            Discussion and Analysis of the Pesticide Program included comparing the
            overview information with information in EPA’s principal financial statements
            for consistency. We did not identify any material inconsistencies between the
            information presented in the two documents.

Prior Audit Coverage

            During previous financial statement audits, we reported the following significant
            deficiencies:

                	 We reported in the March 2011 PRIA report that EPA misapplied federal
                   retirement benefit cost factors in calculating fiscal year 2010 imputed
                   costs related to the Civil Service Retirement System and the Federal
                   Employees Retirement System. Imputed costs are costs that are not fully
                   reimbursed
                   
                	 We could not assess the adequacy of the Integrated Financial
                   Management System automated controls.

            The Agency has taken action to correct both of these deficiencies by correcting
            the fiscal year 2010 imputed costs in the PRIA Fund Financial Statements and by
            implementing a new accounting system to replace the Integrated Financial
            Management System in October 2011

Agency Comments and OIG Evaluation

            In a memorandum dated May 11, 2012, the Agency responded to our draft report.
            The Office of the Chief Financial Officer and Office of Chemical Safety and
            Pollution Prevention concurred with our recommendations and provided
            corrective actions for each specific recommendation. We agree with the Agency’s


12-1-0522                                                                                       4
             proposed corrective actions and believe that they adequately address the issues
             raised. The Agency’s complete response is included as appendix B to this report.




Paul C. Curtis
Director, Financial Statement Audits
Office of Inspector General
U.S. Environmental Protection Agency
June 6, 2012




12-1-0522                                                                                       5
                                                                                      Attachment 1




                                 Material Weakness

                                      Table of Contents 



1 – PRIA Payroll and Benefits Payable are Understated.............................................. 7





12-1-0522                                                                                            6
            1 – PRIA Payroll and Benefits Payable Are Understated
EPA materially understated the PRIA Fund’s payroll and benefits payable, and related payroll
expense included in gross costs, in the draft fiscal year 2011 financial. OMB Circular A-136,
Financial Reporting Requirements, states, “Liabilities shall be recognized when they are
incurred regardless of whether they are covered by available budgetary resources.” The
Agency’s practice of transferring employees and related expenses and liabilities from PRIA to
the EPM Fund for cash flow reasons led to the understatement. The fiscal year 2010 accruals for
PRIA were $239,000 while the fiscal year 2011 accruals were $8,000. Such understatements
could impact the opinion on the financial statements and reliance on reported PRIA financial
information.

The annual leave accrual amount is calculated at year-end using the total number of PRIA
employees multiplied by their hourly rates and accrued leave balances. Just prior to year-end, the
Office of Pesticide Programs transferred all employees from PRIA to EPM. On average,
59 employees were assigned to PRIA throughout fiscal year 2011. The transfer removed the base
upon which the leave accrual and the benefits payable amounts are calculated. As a result,
payroll and benefits payable were materially understated.

EPA uses the EPM appropriation for a broad range of abatement, prevention, and compliance
activities, and personnel compensation, benefits, travel, and expenses for all programs of the
Agency. Statement of Federal Financial Accounting Standards No. 5 states that liabilities should
be recognized when they are incurred and directs that liabilities arising from transactions should
be recognized for the unpaid amounts due as of the reporting date. OMB Circular No. 136,
Financial Reporting Requirements, further classifies liabilities of federal agencies as liabilities
covered or not covered by budgetary resources (e.g., unfunded).

EPA began the practice of moving payroll expenses from PRIA to EPM in fiscal year 2000.
When PRIA resources are low, the Agency transfers employees from PRIA to EPM to keep
PRIA obligations and disbursements within budgetary and cash limits. As PRIA fees are
collected, employees are moved back to the PRIA appropriation. EPA has regularly disclosed
this ongoing practice in prior PRIA financial statement reports, and this practice is expected to
continue throughout fiscal year 2012. Temporarily moving employees for cash flow reasons
should not impact accruals as long as those employees are continuing the same work. If the
transfers become permanent, PRIA should recognize a benefit as another appropriation would be
covering the accrued payroll debt.

The process of moving employees and the related payroll expenses and liabilities between PRIA
and EPM near year-end contributed to the understatement of the PRIA payroll and benefits
payable and related payroll expense included in gross costs, in the draft fiscal year 2011 financial
statements. However, the Office of the Chief Financial Officer should have realized that the
transfer of employees from PRIA to EMP was only temporary and computed the annual leave
accrual and payroll benefits payable amounts accordingly.




12-1-0522                                                                                         7
Recommendations

We recommend that Office of the Chief Financial Officer:

   1.	 Correct the PRIA financial statements to reflect the proper payroll and benefits payable
       amounts.

   2.	 Closely monitor the payroll and benefit accruals for PRIA at year-end.

Agency Response and OIG Evaluation

The Agency agreed with our findings and recommendations, and has completed corrective
actions on recommendation 1. The Office of the Chief Financial Officer corrected the PRIA
financial statements to reflect the proper payroll and benefits payable amounts.

Agency actions on recommendation 2 are pending. The Office of the Chief Financial Officer
indicated it will closely monitor the payroll and benefit accruals for PRIA at year-end. The
estimated completion date for this corrective action is September 30, 2012.

The Agency’s response is included in appendix B to this report. We agree with the Agency’s
proposed corrective actions and believe they adequately address the issues raised.




12-1-0522                                                                                         8
                                                              Attachment 2




                     Significant Deficiency

                           Table of Contents


2 – EPA Should Identify When Pesticide Registration Improvement
    Renewal Act Fees Should Be Recorded as Accounts Receivables…………. 10




12-1-0522                                                                 9
  2 – EPA Should Identify When Pesticide Registration Improvement
   Renewal Act Fees Should Be Recorded as Accounts Receivables
EPA did not record accounts receivable for a Pesticide Registration Improvement Renewal Act
(PRIA 2) fee until the payments were 18 months overdue. The program office sent the request to
the Cincinnati Finance Center after the collection was overdue. The Federal Insecticide,
Fungicide, and Rodenticide Act (FIFRA), as amended by PRIA, requires that when EPA does
not receive payment of a registration service fee by 30 days after the fee is due, the fee shall be
treated as a claim of the government. By not tracking or recording the request for payment of a
government debt in the financial system, EPA may be understating its accounts receivable in its
annual financial statements.

During our fiscal year 2011 allowance review, we found a PRIA receivable totaling $1,090 for
which the finance center did not record an allowance for doubtful account because there was no
accounting model for a PRIA allowance for doubtful account. We reviewed the receivable and
found supporting documentation showing that EPA’s program office sent a billing letter to a
vendor for nonpayment of fees in July 2008, requesting payment by August 2008. The program
office requested the Accounting and Reporting Section (ARS) to record the receivable. ARS
requested that the finance center record the receivable in January 2010, over 1 year after the
nonpayment of fees letter was sent. We reviewed the allowance files at year-end and found that
this receivable remained uncollected, and no recorded allowance appears in the financial system.

FIFRA, as amended by PRIA, Section 33(b)(2)(D), states that the registration service fee
required under this subsection shall be due upon submission of the application. Section
33(b)(2)(F–H) states that the Administrator shall reject any application submitted without the
required registration service fee and retain 25 percent of the applicable registration service fee.
In any case in which the Administrator does not receive payment of a registration service fee
(or applicable portion of the registration service fee) by the date that is 30 days after the fee is
due, the fee shall be treated as a claim of the U.S. government subject to 31 U.S. Code,
Chapter 37, Subchapter II.

ARS did not explain why the request for recording the receivable did not reach the finance center
until January 2010. We believe the request to record a receivable should be sent directly to the
finance center at the same time a billing letter is sent to the vendor requesting payment. EPA
does not have any policies or procedures relating to the recording of account receivables for
nonpayment of PRIA fees.

Clear policies and procedures that outline when or how billings for PRIA fees from rejected
applications should be handled in the financial system would improve EPA’s internal controls.
If EPA considers nonpayment of rejected applications to be receivables after the 30-day period,
EPA should ensure that the nonpayment is recorded in the financial system at the time the billing
letter is sent to the vendor and not 1 year later. Because the finance center reviews delinquent
debt quarterly to estimate the uncollectible amount, these receivables should have been recorded
in the allowance for doubtful accounts much sooner. EPA should ensure that the financial system
has an allowance accounting model to timely record PRIA receivables.



12-1-0522                                                                                              10
Recommendations
We recommend that the Office of the Chief Financial Officer:

   3.	 Work with the Office of Chemical Safety and Pollution Prevention to develop policies
       and procedures that identify when accounts receivable should be recorded for
       nonpayment of PRIA fees.

   4.	 Create an accounting model in the financial system for PRIA allowances and possible
       write-offs.

We recommend that the Office of Chemical Safety and Pollution Prevention:

   5.	 Develop a routine process to ensure that its staff is trained on accounting policies and
       procedures relating to sending documents to the finance centers for recording accounts
       receivable.

Agency Response and OIG Evaluation

The Agency agreed with our findings and recommendations, and it has completed corrective
actions on recommendation 4. The Office of the Chief Financial Officer established general
ledger posting models in Compass for PRIA allowances and possible write-offs.

Agency actions on recommendations 3 and 5 are pending. . The Office of the Chief Financial
Officer will work with the Office of Chemical Safety and Pollution Prevention to develop
policies and procedures that identify when accounts receivables should be recorded for
nonpayment of PRIA fees. The estimated completion date for this corrective action is December
31, 2012. The Office of Chemical Safety and Pollution Prevention is changing its procedures
with respect to establishing accounts receivables for PRIA actions that are rejected for non-
payment of the required PRIA fee. The estimated completion date for this corrective action is
July 31, 2012.

The Agency’s response is included in appendix B to this report. We agree with the Agency’s
proposed corrective actions and believe they adequately address the issues raised.




12-1-0522                                                                                         11
                                                                                                                                Attachment 3


                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1       Action Official            Date      Amount      Amount

     1        8     Correct the PRIA financial statements to reflect the      C             Office of the         03/05/2012
                    proper payroll and benefits payable amounts.                       Chief Financial Officer

     2        8     Closely monitor the payroll and benefit accruals for      O             Office of the         09/30/2012
                    PRIA at year-end.                                                  Chief Financial Officer

     3       11     Work with the Office of Chemical Safety and               O             Office of the         12/31/2012
                    Pollution Prevention to develop policies and                       Chief Financial Officer
                    procedures that identify when accounts receivable
                    should be recorded for nonpayment of PRIA fees.

     4       11     Create an accounting model in the financial system        C             Office of the         01/11/2012
                    for PRIA allowances and possible write-offs.                       Chief Financial Officer

     5       11     Develop a routine process to ensure that its staff is     O       Office of Chemical Safety   07/31/2012
                    trained on accounting policies and procedures                     and Pollution Prevention
                    relating to sending documents to the finance
                    centers for recording accounts receivable.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-1-0522                                                                                                                                        12
                                                                       Appendix A




FYs 2011 and 2010 PESTICIDE REGISTRATION FUND 

                     (PRIA) 

             FINANCIAL STATEMENTS 





              Produced by the U.S. Environmental Protection Agency 

                      Office of the Chief Financial Officer 

                        Office of Financial Management





 12-1-0522

                           TABLE OF CONTENTS 





Management’s Discussion and Analysis                                   1   

Principal Financial Statements                                         7   





12-1-0522             EPA’s FY 2011 Annual PRIA Financial Statements
            Management’s Discussion and Analysis





12-1-0522        EPA’s FY 2011 Annual PRIA Financial Statements   1
      MANAGEMENT’S DISCUSSION AND ANALYSIS


        The EPA’s Office of Pesticide Programs (OPP) was established to administer the Federal
Insecticide, Fungicide and Rodenticide Act (FIFRA) to protect public health and the
environment. The law requires the Agency to balance public health and environmental concerns
with the expected economic benefits derived from pesticides. The guiding principles of the
pesticide program are to reduce risks from pesticides in food, the workplace, and other exposure
pathways and to prevent pollution by encouraging the use of new and safer pesticides.

         With passage of the Pesticide Registration Improvement Act (PRIA) of 2003, the
pesticide program now administers the Pesticide Registration Fund. PRIA authorizes the
collection of new fees for pesticide registrations. Registration service fees are deposited into the
Registration Fund and made available for obligation to the extent provided in appropriation Acts,
and are available without fiscal year limitation.

                                     Pesticide Registration

        Under the authority of FIFRA and the Federal Food, Drug, and Cosmetic Act (FFDCA)
as amended by the Food Quality Protection Act (FQPA), no person or State can distribute or sell
any pesticide that is not registered with the Agency. The pesticide registration program works to
decrease the risk to the public from pesticide use through the regulatory review of new
pesticides. In 2004, Congress passed PRIA, with deadlines for completion of certain registration
actions. As part of the registration program, EPA expedites the registration of reduced-risk
pesticide uses, which are generally presumed to pose lower risks to people and the environment.
These accelerated pesticide reviews provide an incentive for industry to develop, register, and
use lower risk pesticides. Additionally, the availability of these reduced-risk pesticides provides
alternatives to older, potentially more harmful products currently on the market.

        Biological agents are potential weapons that could be exploited by terrorists against the
United States. EPA’s pesticides antimicrobial program is working to help address this threat.
Antimicrobials play an important role in public health and safety. EPA is conducting
comprehensive scientific assessments and developing test protocols to determine the safety and
efficacy of products used against chemical and biological weapons of mass destruction, and
registering products as necessary. EPA is also developing a timeline for prioritizing and
implementing the tests. In addition, the FIFRA Section 18 program provides emergency
exemption to any part of FIFRA. This authority is typically used by States on an emergency
basis. EPA has recently used this authority to help with homeland security. Section 18
exemptions have been authorized to help with anthrax and soybean rust.

      PRIA established registration service fees for certain antimicrobials, biopesticides and
conventional pesticides registration actions. The category of action, the amount of the




12-1-0522                 EPA’s FY 2011 Annual PRIA Financial Statements                    2
registration service fee, and the corresponding decision review periods by year are prescribed in
the statute. The goal is to create a more predictable evaluation process for affected pesticide
decisions, and couple the collection of individual fees with specific decision review periods. The
legislation also promotes shorter decision review periods for reduced-risk applications. PRIA
became effective on March 23, 2004, and the collection of registration fees were authorized
through FY 2008. PRIA was reauthorized with passage of the Pesticide Registration
Improvement Renewal Act (commonly referred to as PRIA 2) on October 9, 2007. PRIA 2
became effective retroactive to October 1, 2007, and the collection of registration fees are now
authorized through FY 2012. In order to help ensure a smooth transition (if PRIA 2 is not re-
authorized), PRIA 2 reduces the registration service fees by 40 percent in FY 2013 and then by
70 percent in FY 2014. For any application received after September 30, 2012, but before
September 30, 2014, the reduced registration service fee applies, while the decision review
periods do not.

         In order for a pending or a new application covered by PRIA to be deemed complete and
subject to the decision review periods, a registrant is required to pay the applicable fee or receive
a waiver from the fees1. For most applications, the decision review period starts 21 days after
submission of the application - provided that the fee has been paid, fee waiver granted or in the
case of a 75% or 50% fee waiver under PRIA 2, the fee has been paid and waiver granted. The
legislation provides fee waivers for certain categories of small businesses, and minor uses2.
Exemptions from the requirement to pay a registration service fee is provided under PRIA 2 for
applications solely associated with IR-4 petitions3. Applications from federal and state agencies
are also exempt from registration service fees. If the registrant requests a waiver or reduction of
the fee, the decision review period will begin when the Agency grants such request or in the case
of small business fee waivers, no more than 60 days after receipt of the waiver application. If it
is determined that a fee is required and thus the waiver is not granted, the decision review period
starts after the fee is collected.

        Applications received prior to October 1, 2007 are covered by PRIA 1. Applications
received in FY08 are covered by PRIA 2 and PRIA 2 contains the same audit provision as PRIA
1. PRIA 2 imposed minimum payment requirements, requires the EPA to reject an application
for an unpaid fee, allows the Agency to reject an application and retain a portion of the fee if the
application fails an initial content screen; increased the fee categories or types of applications


1
  Out of approximately 11,650 completed PRIA actions since the start of PRIA, more than 99% were completed on
or before the PRIA/PRIA 2 due date.
2
  Minor use pesticides are those that produce relatively little revenue for their manufacturers, for a variety of
reasons. They may be registered for a seldom seen pest, or for a crop that is not grown by a large number of
producers. However, minor crops include some high revenue fruit, vegetable, and ornamental crops.
3
  The IR-4 (Interregional Research Project No.4) program is involved in making sure that pesticides are registered
for use on minor crops. IR-4 helps by conducting research on minor use pesticides, pesticides that would not
otherwise be profitable to manufacture.




12-1-0522                     EPA’s FY 2011 Annual PRIA Financial Statements                              3
covered by PRIA from 90 to 140; allows the use of investment income; eliminated the 100% fee
waiver for small businesses; and increased the amount to support worker protection activities.

                               Research Program Description

        Chemical safety is a major priority of research and decision making at EPA. EPA’s new
integrated Chemical Safety for Sustainability research program is charged with examining the
risks resulting from exposure to pesticides and toxic chemicals. In previous years, this research
was performed under EPA’s pesticides and toxics research program which will be consolidated
in FY 2012 into the Chemical Safety for Sustainability research program. Chemical safety
research is improving the protection of human health and the environment by providing scientific
approaches and information on chemical exposure, hazard and risk. The research program’s
major goals are: (1) to evaluate pesticide and toxic chemicals for potential risks to human health
and the environment; (2) to research ways to produce, use and dispose of new and existing
chemicals using more sustainable methods, (3) emphasizes research efforts targeting
nanomaterials and endocrine disrupting chemicals and (4) uses innovative chemical screening
technologies such as computational toxicology to generate chemical data on the biological
effects of large numbers of chemicals.

The Chemical Safety research program:
   	 Examines chemical properties (inherency): Chemical inherency is the physico-chemical
      characteristics of a pesticide or toxic that influences exposure and toxicity potential.
      Inherency research works to understand the relationships between chemical inherency,
      toxicity potential and specific disease outcomes.
   	 Develops systems models to assess the potential toxicity of chemicals: Systems models
      are developed to research the entire process of how a pesticide or toxic interacts with the
      biological processes of humans and wildlife. The investigation starts with research on
      chemical exposures. It then follows the subsequent interactions between chemical
      exposures and resulting adverse effects to improve the understanding of environmentally
      caused diseases.
   	 Evaluates biomarkers: Biomarkers are biological responses that indicate exposure to a
      pesticide or toxic, an effect from exposure or susceptibility to adverse effects from a
      chemical. Biomarkers research uses linkages to develop biomarker-based predictive tools
      to understand chemical exposure events and predict potential outcomes.
   	 Assesses cumulative risk: Real world chemical exposures are rarely due to a single
      pesticide or toxic. The research assesses the potential human health and environmental
      outcomes that may occur due to multiple and continuous exposures to toxics and
      mixtures, especially those found in consumer products.
   	 Evaluates Chemical Life Cycle: Life cycle considerations research includes studying the
      design, manufacture, and use of a pesticide or toxic. By examining the environmental
      exposures and human and ecological health impacts of a chemical, Life Cycle research
      provides data to inform the design of more sustainable chemicals.




12-1-0522 	              EPA’s FY 2011 Annual PRIA Financial Statements                   4
   	 Provides methods for extrapolating chemical data: This research uses available pesticide
      and toxics data to develop approaches that extrapolate possible effects between test
      organisms and human or ecological responses, test and real-world exposure durations,
      and from laboratory to field conditions.
   	 Provides decision makers access to developed databases, tools and models: Using EPA’s
      web-based interactive tools, decision-makers and others interested in pesticide and toxics
      research data can access information from chemical exposure, hazard data, decision-rules
      and predictive models. CSS is working to provide more integrative, holistic information
      for use in pesticide and toxic risk assessment and risk management decisions.

              Enforcement and Compliance Assurance Program Description

        The Pesticide Enforcement and Compliance Assurance Program focuses on pesticide
product and user compliance. These include problems relating to pesticide worker safety,
certification and training of applicators, ineffective antimicrobial products, food safety, adverse
effects, risks of pesticides to endangered species, pesticide containers and containment facilities,
and e-commerce and misuse. The enforcement and compliance assurance program provides
compliance assistance to the regulated community through its National Agriculture Compliance
Assistance Center, seminars, guidance documents, brochures, and other forms of communication
to ensure knowledge of and compliance with environmental laws.

         EPA’s grant support to states’ and tribes’ pesticide programs emphasizes its commitment
to maintaining a strong compliance and enforcement presence. Agency Cooperative Agreement
priorities for FY 2011 – FY 2013 include reducing chemical risks and protecting the underserved
and vulnerable populations. Core program activities include inspections of producing
establishments; dealers/distributors/retailers; e-commerce; imports and exports, and pesticide
misuse. Additionally, through the Cooperative Agreement resources we support inspector
training and training for state/tribal senior managers, scientists, and supervisors.


                               Highlights and Accomplishments

Registration Financial Perspective

       During FY 2011, the Agency's obligations charged against the Pesticide Registration
Fund for the cost of registration were $14.9 million and 54.3 workyears (all obligated by OPP).

         Appropriated funds are used in addition to Registration funds. In FY 2011, the enacted
operating plan included approximately $38.2 million in appropriated funds for registration
activities. The unobligated balance in the Fund at the end of FY 2011 was $4.2 million.




12-1-0522 	               EPA’s FY 2011 Annual PRIA Financial Statements                    5
       The Fund has two types of receipts: fee collections and interest earned on investments.
Of the $11.7 million in FY 2011 receipts, more than 99.9% were fee collections.

Registration Program Performance Measures

The following measures support the program's strategic goals of Healthy Communities and
Ecosystems as contained in the FY 2011 President’s budget.

       Measure 1: Number of new active ingredients registered.

        Results: In FY 2011 EPA registered 18 new active ingredients, of which 11 are
biopesticides, and 4 are conventional pesticides (1 with domestic uses and 3 import tolerance
only new active ingredients). This measure includes both reduced-risk and non-reduced-risk
pesticides.



       Measure 2: Progress in Registering Reduced-risk Pesticides.

        Results: In FY 2011, EPA registered 11 reduced-risk new active ingredients,all of
whichwere biological pesticides. Biological pesticides are certain types of pesticides derived
from such natural materials as animals, plants, bacteria, and certain minerals. They are usually
less toxic and are typically considered safer pesticides than the traditional conventional
chemicals; therefore, the 11 biopesticides new active ingredients are counted as reduced-risk
pesticides. Conventional “reduced risk” pesticides have one or more of the following
advantages over currently registered pesticides: low impact on human health, low toxicity to
non-target organisms, low potential for groundwater contamination, lower use rates, low pest
resistance potential, and compatibility with integrated pest management strategies.




       Measure 3: Number of New Food Uses Registered.

       Results: EPA registered 194 new food uses for previously registered active ingredients.
Of these new uses, 184 were for conventional pesticides, 2 were for antimicrobial pesticides, and
8 were for biopesticides.

       Measure 4: Progress in Registering Reduced-risk New Uses.

       Results: Included in the new uses registered are 23 reduced-risk.




12-1-0522                EPA’s FY 2011 Annual PRIA Financial Statements                  6
                    PRINCIPAL 

              FINANCIAL STATEMENTS





12-1-0522   EPA’s FY 2011 Annual PRIA Financial Statements   7
                                    TABLE OF CONTENTS

Financial Statements

       Balance Sheet                                                                 9      

       Statement of Net Cost                                                         10         

       Statement of Changes in Net Position                                          11             

       Statement of Budgetary Resources                                              12


Notes to Financial Statements

       Note 1.    Summary of Significant Accounting Policies                         13

       Note 2.    Fund Balance with Treasury                                         16             

       Note 3.    Other Assets                                                       16         

       Note 4.    General Property, Plant and Equipment                              17

       Note 5.    Other Liabilities                                                  17             

       Note 6.    Payroll and Benefits Payable                                       18

       Note 7.    Income and Expenses from Other Appropriations                      18 

       Note 8.    Exchange Revenues, Statement of Net Cost                           20 

       Note 9.    Intragovernmental Costs and Exchange Revenue                       20

       Note 10.   Reconciliation of Net Cost of Operations to Budget (formerly the
                        Statement of Financing)                                      21





12-1-0522                  EPA’s FY 2011 Annual PRIA Financial Statements            8
                               Environmental Protection Agency 

                                             PRIA

                                        Balance Sheet 

                       For the Years Ended September 30, 2011 and 2010 

                                    (Dollars in Thousands) 


                                                                  FY 2011               FY 2010
 AS S ETS
 Intragovernmental:
    Fund Balance With Treasury (Note 2)                    $             11,241     $         15,094
    Other (Note 3)                                                           40                  100
 Total Intragovernmental                                   $             11,281     $         15,194

 Accounts Receivable, Net                                                     2                    2
 Property, Plant & Equipment, Net (Note 4)                                3,188                4,445
    Total Assets                                           $             14,471     $         19,641




 LIABILITIES
 Intragovernmental:
    Accounts Payable and Accrued Liabilities                                 133                   141
    Other (Note 5)                                                            95                    21
 Total Intragovernmental                                   $                 228    $              162

 Accounts Payable & Accrued Liabilities                    $                816     $          1,088
 Payroll & Benefits Payable (Note 6)                                        962                  239
 Other (Note 5)                                                          10,064               14,088
    Total Liabilities                                      $             12,070     $         15,577


 NET POS ITION
 Cumulative Results of Operations                                           2,401                 4,064

 Total Net Position                                                         2,401                 4,064

    Total Liabilities and Net Position                     $             14,471     $         19,641




                        The accompanying notes are an integral part of these statements.




12-1-0522                     EPA’s FY 2011 Annual PRIA Financial Statements                  9
                           Environmental Protection Agency
                                         PRIA
                                 Statement of Net Cost
                   For the Years Ended September 30, 2011 and 2010
                                (Dollars in Thousands)

                                                        FY 2011                    FY 2010

  COS TS

      Gross Costs (Note 9)                        $               17,672 $                   16,990
      Expenses from Other Appropriations (Note 7)                 36,710                     37,256
      Total Costs                                 $               54,382 $                   54,246
        Less:
      Earned Revenue (Notes 8 and 9)                              15,809                     17,885

  NET COS T OF OPERATIONS (Note 9)               $                38,573   $                 36,361




                The accompanying notes are an integral part of these statements.




12-1-0522                 EPA’s FY 2011 Annual PRIA Financial Statements                      10
                              Environmental Protection Agency 

                                            PRIA

                            Statement of Changes in Net Position 

                      For the Years Ended September 30, 2011 and 2010 

                                    (Dollars in Thousands)




                                                                        FY 2011             FY 2010
     Cumulative Results of Operations:

     Net Position - Beginning of Period                                       4,064             2,806
         Beginning Balances, as Adjusted                       $              4,064     $       2,806

     Budgetary Financing S ources:
           Nonexchange Revenue - Securities Investment                          5                   6
           Nonexchange Revenue - Other                                          0                   2
           Income from Other Appropriations (Note 7)                       36,710              37,256
        Total Budgetary Financing Sources                      $           36,715       $      37,264

     Other Financing S ources (Non-Exchange)
           Imputed Financing Sources                                            195              355
        Total Other Financing Sources                          $                195     $        355

         Net Cost of Operations                                           (38,573)            (36,361)

         Net Change                                                           (1,663)           1,258

     Cumulative Results of Operations                          $              2,401     $       4,064




                  The accompanying notes are an integral part of these statements.




12-1-0522                    EPA’s FY 2011 Annual PRIA Financial Statements                           11
                               Environmental Protection Agency 

                                             PRIA

                               Statement of Budgetary Resources 

                       For the Years Ended September 30, 2011 and 2010 

                                     (Dollars in Thousands) 

                                                                       FY 2011                FY 2010

BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1:                 $              7,393     $           6,980
      Adjusted Subtotal                                                         7,393                 6,980
Budgetary Authority:
   Appropriation                                                               11,790             18,557
Spending Authority from Offsetting Collections
   Earned:
      Collected                                                                     -                  3
       Total Spending Authority from Offsetting Collections                         -                  3
Temporarily Not Available Pursuant to Public Law                                  (40)                 -
Total Budgetary Resources                                        $             19,143     $       25,540



STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
  Direct                                                         $             14,896     $       18,147
Total Obligations Incurred                                                     14,896             18,147
Unobligated Balances:
  Apportioned                                                                   4,247              7,368
Total Unobligated Balances                                                      4,247              7,368
Unobligated Balances Not Available                                                  -                 25
Total Status of Budgetary Resources                              $             19,143     $       25,540

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:
   Unpaid Obligations, Brought Forward, October 1                $               7,701    $         8,161
     Total Unpaid Obligated Balance, Net                                         7,701              8,161
Obligations Incurred, Net                                                       14,896             18,147
Less: Gross Outlays                                                            (15,642)           (18,607)
    Total, Change in Obligated Balance                                           6,955              7,701

Obligated Balance, Net, End of Period:
  Unpaid Obligations                                                            6,955                 7,701
     Total, Unpaid Obligated Balance, Net, End of Period         $              6,955     $           7,701


NET OUTLAYS
Net Outlays:
   Gross Outlays                                                 $              15,642    $        18,607
   Less: Offsetting Collections                                                      -                 (3)
   Less: Distributed Offsetting Receipts (Note 1 Section L)                    (11,790)           (18,557)
Total, Net Outlays                                               $               3,852    $            47



                    The accompanying notes are an integral part of these statements.



12-1-0522                     EPA’s FY 2011 Annual PRIA Financial Statements                     12
                            Environmental Protection Agency

                                          PRIA 

                             Notes to Financial Statements 

                                 (Dollars in Thousands) 


Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

The U.S. Environmental Protection Agency (EPA or Agency) was created in 1970 by executive
reorganization from various components of other Federal agencies in order to better marshal and
coordinate federal pollution control efforts. The Agency is generally organized around the media
and substances it regulates -- air, water, land, hazardous waste, pesticides and toxic substances.

The Pesticide Registration Fund (PRIA) is authorized under the Pesticide Registration
Improvement Act of 2003 (which amended the Federal Insecticide, Fungicide, and Rodenticide
Act (FIFRA)), and became effective on March 23, 2004. This Act authorizes the EPA to assess
and collect pesticide registration service fees on applications submitted to register pesticides
covered by this Act, as well as assess and collect fees to register new active ingredients not listed
in the Registration Division 2003 Work Plan of the Office of Pesticide Programs. The Pesticide
Registration Improvement Renewal Act (commonly referred to as PRIA II) extended the
authority to collect pesticide registration service fees through FY 2012. PRIA II became
effective October 1, 2007. The PRIA Fund is accounted for under Treasury symbol number
68X5374.

The PRIA fund may charge some administrative costs directly to the fund and charge the
remainder of the administrative costs to Agency-wide appropriations. Costs funded by Agency-
wide appropriations for FYs 2011 and 2010 were $36,710 thousand and $37,256 thousand,
respectively. This amount was included as Income from Other Appropriations on the Statement
of Changes in Net Position and as Expenses from Other Appropriations on the Statement of Net
Cost for FYs 2011 and 2010.

B. Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the EPA for the Pesticide Registration Fund (PRIA) as required by the Chief
Financial Officers Act of 1990 and the Pesticide Registration Improvement Act (PRIA) of 2003.
In the prior years, pesticide registration was included in the FIFRA financial statements. The
reports have been prepared from the books and records of the EPA in accordance with Office of
Management and Budget (OMB) Circular A-136 Financial Reporting Requirements, and the
EPA's accounting policies which are summarized in this note. These statements are therefore



12-1-0522                 EPA’s FY 2011 Annual PRIA Financial Statements                     13
different from the financial reports also prepared by the EPA pursuant to OMB directives that are
used to monitor and control the EPA's use of budgetary resources. The balances in these reports
have been updated from the EPA consolidated financial statements to reflect the use of FY 2011
cost factors for calculating imputed costs for Federal civilian benefits programs. These updates
impact the Balance Sheet, Statement of Net Cost, and Statement of Changes in Net Position.

C. Budgets and Budgetary Accounting

Funding for PRIA is provided by fees collected from industry to offset costs incurred by EPA in
carrying out these programs. Each year the EPA submits an apportionment request to OMB
based on the anticipated collections of industry fees.

D. Basis of Accounting

Generally Accepted Accounting Principles (GAAP) for Federal entities is the standard
prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the official
standard setting body for the federal government. The financial statements are prepared in
accordance with GAAP for federal entities.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of Federal funds. All
interfund balances and transactions have been eliminated.

E. Revenues and Other Financing Sources

For FYs 2011 and 2010, PRIA received funding from fees collected from registrants requesting
pesticide registrations. For FYs 2011 and 2010, revenues were recognized from fee collections
to the extent that expenses are incurred during the fiscal year.

F. Funds with the Treasury

The PRIA fund deposits receipts and processes disbursements through its operating account
maintained at the U.S. Department of the Treasury.

G. Investments in U. S. Government Securities

Investments in U. S. government securities are maintained by Treasury and are reported at
amortized cost net of unamortized discounts. Discounts are amortized over the term of the
investments and reported as interest income. PRIA holds the investments to maturity, unless
needed to finance operations of the fund. No provision is made for unrealized gains or losses on
these securities because, in the majority of cases, they are held to maturity.



12-1-0522                EPA’s FY 2011 Annual PRIA Financial Statements                    14
H. General Property, Plant and Equipment

Purchases of the EPA-held personal equipment are capitalized if the equipment is valued at $25
thousand or more and has an estimated useful life of at least two years. Depreciation is taken on
a basic straight-line method over the specific asset’s useful life, ranging from two to15 years.
The EPA shows property, plant and equipment at net of depreciation on its audited financial
statements.

All funds (except for the Working Capital Fund) capitalize software if those investments are
considered Capital Planning and Investment Control (CPIC) or CPIC Lite systems with the
provisions of SFFAS No. 10, “Accounting for Internal Use Software.” Once software enters the
production life cycle phase, it is depreciated using the straight-line method over the specific
asset’s useful life ranging from two to 10 years.

I. Liabilities

Liabilities represent the amount of monies or other resources that are likely to be paid by the
Agency as the result of an Agency transaction or event that has already occurred and can be
reasonably estimated. However, no liability can be paid by the Agency without an appropriation
or other collections. Liabilities for which an appropriation has not been enacted are classified as
unfunded liabilities and there is no certainty that the appropriations will be enacted. For PRIA,
liabilities are liquidated from fee receipts, since PRIA receives no appropriation. Liabilities of
the Agency arising from anything other than contracts can be abrogated by the Government
acting in its sovereign capacity.

J. Accrued Unfunded Annual Leave

Annual, sick and other leave is expensed as taken during the fiscal year. Sick leave earned but
not taken is not accrued as a liability. Annual leave earned but not taken as of the end of the
fiscal year is accrued as an unfunded liability. Accrued unfunded annual leave is included in the
Balance Sheet as a component of “Payroll and Benefits Payable.”

K. Retirement Plan

There are two primary retirement systems for Federal employees. Employees hired prior to
January 1, 1987, may participate in the Civil Service Retirement System (CSRS). On January 1,
1984, the Federal Employees Retirement System (FERS) went into effect pursuant to Public Law
99-335. Most employees hired after December 31, 1983, are automatically covered by FERS
and Social Security. Employees hired prior to January 1, 1984, elected to either join FERS and
Social Security or remain in CSRS. A primary feature of FERS is that it offers a savings plan to
which the Agency automatically contributes one percent of pay and matches any employee




12-1-0522                EPA’s FY 2011 Annual PRIA Financial Statements                     15
contributions up to an additional four percent of pay. The Agency also contributes the
employer’s matching share for Social Security.

With the issuance of SFFAS No. 5, "Accounting for Liabilities of the Federal Government,"
accounting and reporting standards were established for liabilities relating to the federal
employee benefit programs (Retirement, Health Benefits, and Life Insurance). SFFAS No. 5
requires that the employing agencies recognize the cost of pensions and other retirement benefits
during their employees’ active years of service. SFFAS No. 5 requires that the Office of
Personnel Management (OPM), as administrator of the CSRS and FERS, the Federal Employees
Health Benefits Program, and the Federal Employees Group Life Insurance Program, provide
federal agencies with the actuarial cost factors to compute the liability for each program.

L.   Offsetting Receipts

Beginning in FY 2007 OMB Circular A-136, Financial Reporting Requirements, requires that
the amount of distributed offsetting receipts reported in the Statement of Budgetary Resources
(SBR) should equal the amount recorded as offsetting receipts by the Department of the Treasury
(Treasury). Pesticide Registration Fees collected under PRIA are considered to be offsetting
receipts by Treasury.

M. Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

Note 2. Fund Balance with Treasury

                                                        FY 2011                    FY 2010

 Revolving Funds:          Entity Assets        $             11,241         $           15,094



Note 3. Other Assets

Other Assets consist of advances for Interagency Agreements. As of September 30, 2011 and
2010, funds advanced that will be applied to future costs as incurred were $40 thousand and
$100 thousand respectively.




12-1-0522                  EPA’s FY 2011 Annual PRIA Financial Statements                  16
Note 4. General Property, Plant and Equipment

General property, plant and equipment consists of the EPA-Held personal property, software,
and software in development.

As of September 30, 2011 and 2010, General Property, Plant and Equipment consist of the
following:

                                    FY 2011                                   FY 2010

                     Acquisition  Accumulated     Net Book     Acquisition  Accumulated    Net Book

                       Value      Depreciation     Value         Value      Depreciation    Value

EPA-Held Equipment $        410 $         (271) $      139   $        446 $        (239) $      207
Software                  4,198         (1,149)      3,049         4,238               -      4,238
 Total             $      4,608 $       (1,420) $    3,188   $     4,684 $         (239) $    4,445




Note 5. Other Liabilities

For FYs 2011 and 2010, Payroll and Benefits Payable, non-federal, are presented on a separate
line of the Balance Sheet and in a separate footnote (see Note 6).

                                                    FY 2011               FY 2010

Other Intragovernmental Liabilities - Covered
by Budgetary Resources
Employer Contributions - Payroll                $            95   $                 21
      Total                                     $            95   $                 21

Other Non-Federal Liabilities - Covered by
Budgetary Resources
Advances from Non-Federal Entities              $       10,064    $           14,088
      Total                                     $       10,064    $           14,088




12-1-0522                EPA’s FY 2011 Annual PRIA Financial Statements                   17
Note 6. Payroll and Benefits Payable, Non-Federal:

                                                          FY 2011                    FY 2010

    Covered by Budgetary Resources
    Accrued Payroll Payable to Employees             $            327           $              61
    Withholdings Payable                                           61                          29
    Thrift Savings Plan Benefits Payable                           17                           3
           Total                                     $            405           $              93


    Not Covered by Budgetary Resources
    Unfunded Annual Leave                            $            557           $            146
         Total                                       $            557           $            146


At various periods throughout FYs 2011 and 2010 employees with their associated payroll costs
were transferred from PRIA to the Environmental Programs and Management (EPM)
appropriation. (See graph in Note 7 below showing trend of hours charged per month to the
PRIA fund for FYs 2011 and 2010.) These employees were transferred in order to keep PRIA’s
obligations and disbursements within budgetary limits.

This process has led to variations between the year-end liabilities of FYs 2011 and 2010. The
liabilities covered by budgetary resources (both intragovernmental and non-Federal) represent
unpaid payroll and benefits at year-end. For FY 2011 Pay Period 26; no employees charged any
part of their salary and benefits to PRIA. As of September 30, 2011, the liabilities were $95
thousand and $405 thousand for employer contributions and accrued funded payroll and benefits
as compared to FY 2010’s balances of $21 thousand and $93 thousand, respectively.

In contrast, the unfunded annual leave liability is a longer term liability than the funded
liabilities. At various periods throughout FYs 2011 and FY 2010, approximately 130 and 144
employees, respectively, in total have been under PRIA’s accountability. As of September 30,
2011 and 2010 liability balances for unfunded annual leave were accrued to cover these
employees for a total of $557 thousand and $146 thousand, respectively.

Note 7. Income and Expenses from Other Appropriations:

The Statement of Net Cost reports program costs that include the full costs of the program
outputs and consist of the direct costs and all other costs that can be directly traced, assigned on a
cause and effect basis, or reasonably allocated to program outputs.




12-1-0522                 EPA’s FY 2011 Annual PRIA Financial Statements                      18
During FYs 2011 and 2010, the EPA had two appropriations which funded a variety of
programmatic and non-programmatic activities across the Agency, subject to statutory
requirements. The EPM appropriation was created to fund personnel compensation and benefits,
travel, procurement, and contract activities. Transfers of employees from PRIA to EPM at
various times during FYs 2011 and 2010 (see Note 6 above) resulted in an increase in payroll
expenses in EPM, and these costs financed by EPM are reflected as an increase in the Expenses
from Other Appropriations on the Statement of Net Cost. The increased financing from EPM is
reported on the Statement of Changes in Net Position as Income from Other Appropriations.

In terms of hours charged to PRIA each month, the transfers of employees and their associated
costs during FYs 2011 and 2010 are shown below. Note that a decrease in hours charged to
PRIA normally signifies an increase in EPM’s payroll costs, and vice versa.


                              PRIA ‐ Total Employee Hours by Month 
                    16,000 

                    14,000 

                    12,000 

                    10,000 
   Employee Hours




                     8,000 
                                                                                  FY 2011 Total Hours
                     6,000                                                        FY 2010 Total Hours

                     4,000 

                     2,000 

                         ‐




The EPM costs related to PRIA are allocated based on specific EPM program codes which have
been designated for Pesticide registration activities. As illustrated below, there is no impact on
PRIA’s Statement of Changes in Net Position.




12-1-0522                        EPA’s FY 2011 Annual PRIA Financial Statements               19
                          Income From Other          Expenses From Other           Net
                            Appropriations             Appropriations             Effect

        FY 2011 $                      36,710    $                   36,710   $         0
                      .
        FY 2010 $                      37,256    $                   37,256   $         0



Note 8. Exchange Revenues, Statement of Net Cost

For FYs 2011 and 2010, the exchange revenues reported on the Statement of Net Cost consists of
non-Federal amounts.

Note 9. Intragovernmental Costs and Exchange Revenue

                                                          FY 2011             FY 2010
         COSTS:
           Intragovernmental                          $      2,661      $          2,730
           With the Public                                  15,011                14,260
           Expenses from Other Appropriations               36,710                37,256
          Total Costs                                 $     54,382      $         54,246

         REVENUE:
           With the Public                                  15,809                17,885
          Total Revenue                               $     15,809      $         17,885

         NET COST OF OPERATIONS                       $     38,573      $         36,361


Intragovernmental costs relate to the source of the goods or services not the classification of the
related revenue.




12-1-0522                  EPA’s FY 2011 Annual PRIA Financial Statements                   20
Note 10. Reconciliation of Net Cost of Operations to Budget (formerly the Statement of
Financing)
                                                                                             FY 2011        FY 2010
RESOURCES USED TO FINANCE ACTIVITIES:
Budgetary Resources Obligated
   Obligations Incurred                                                                  $    14,896 $        18,147
   Less: Spending Authority from Offsetting Collections and Recoveries                             -              (3)
   Obligations, Net of Offsetting Collections                                            $    14,896 $        18,144
   Less: Offsetting Receipts (Note 1 Section L)                                              (11,790)        (18,557)
     Net Obligations                                                                           3,106            (413)
Other Resources
   Imputed Financing Sources                                                             $       195    $           355
    Income from Other Appropriations (Note 7)                                                 36,710             37,256
   Net Other Resources Used to Finance Activities                                        $    36,905    $        37,611

Total Resources Used To Finance Activities                                               $    40,011    $        37,198

RESOURCES USED TO FINANCE ITEMS
NOT PART OF NET COST OF OPERATIONS
  Change in Budgetary Resources Obligated                                                $       913 $             (261)
  Resources that Fund Prior Periods Expenses                                                       -               (446)
  Offsetting Receipts Not Affecting Net Cost (Note 1 Section L)                               11,790             18,557
  Resources that Finance Asset Acquistion                                                     (3,966)              (803)
 Total Resources Used to Finance Items Not
  Part of the Net Cost of Operations                                                     $     8,737    $        17,047

Total Resources Used to Finance the Net
 Cost of Operations                                                                      $    48,748    $        54,245

COMPONENTS OF NET COST OF OPERATIONS
THAT WILL NOT REQUIRE OR GENERATE
RESOURCES IN THE CURRENT PERIOD
Components Requiring or Generating Resources in Future Periods:
  Increase in Annual Leave Liability                                                     $       411 $             -
  Increase in Public Exchange Revenue Receivable                                         $   (15,810)        (17,885)
Total Components of Net Cost of Operations that
  Requires or Generates Resources in the Future                                          $   (15,399) $      (17,885)
Components Not Requiring/Generating Resources:
  Depreciation and Amortization                                                                1,182                  1
  Expenses Not Requiring Budgetary Resources                                                   4,042                  -
Total components of Net cost of Operations that Will Not Require or Generate Resources         5,224                  1

Total components of Net cost of Operations that Will Not Require
   or Generate Resources in the Current Period                                               (10,175)        (17,884)

Net Cost of Operations                                                                   $    38,573    $        36,361




12-1-0522                    EPA’s FY 2011 Annual PRIA Financial Statements                                 21
                                                                                      Appendix B

                 Agency’s Response to Draft Report


                                           May 11, 2012


MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report: “Fiscal Year 2011 and
               2010 Financial Statements for the Pesticides Registration Fund,” Report No.
               2012-P-XXXX, dated April 30, 2012

FROM:          Barbara J. Bennett    /s/ Original Signed By:
               Chief Financial Officer

               Jim Jones, Acting Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Attention to the issues identified in the report should help further strengthen the agency’s
fiscal integrity. Attached is our corrective action plan in response to the specific
recommendations made in the report.

If you have any questions regarding this response, please contact Sandy Dickens of the Office of
Financial Management on (202) 564-0606.


Attachment

cc: 	Maryann Froehlich
     Joshua Baylson
     Steven Bradbury
     Marty Monell
     Stefan Silzer
     Jeanne Conklin
     Chris Osborne
     Sherri Anthony
     Sandy Dickens


12-1-0522

    Sheldonna Proctor
    Raffael Stein
    Melvin Visnick
    Richard Gray
    Janice Kern
    Janet Weiner
    Peter Caulkins
    Vickie Robinson
    Maria Sorrell
    John Street
    Michael Hardy
    Janet Weiner
    Melissa Heist
    Meg Hiatt
    Robert L. Smith
    Art Budelier
    Sheila May
    Bill Samuel




12-1-0522

                                                                                        Attachment

                   Response to Office of Inspector General Draft Report No. 12-P-XXXX
           “Fiscal Year 2011 and 2010 Financial Statements for the Pesticide Registration Fund,”
                                            dated April 30, 2012

Rec.                                                                       Action        Estimated
           OIG Recommendation             Proposed Corrective Action
No.                                                                        Official    Completion Date

 1.    Correct the PRIA financial         1.1 OCFO/OFM will correct       OCFO/OFM        03/05/2012
       statements to reflect the proper   the PRIA financial                            (COMPLETED)
       payroll and benefits payable       statements to reflect the
       amounts.                           proper payroll and benefits
                                          payable amounts.


 2.    Closely monitor the payroll and    2.1 OCFO/OFS will closely       OCFO/OFS         09/30/2012
       benefit accruals for PRIA at       monitor the payroll and
       year-end.                          benefit accruals for PRIA at
                                          year-end.

 3.    Work with the Office of            3.1 OCFO/OFM will work           OCFO/           12/31/2012
       Chemical Safety and Pollution      with OCSPP’s Office of          OFM/FPPS
       Prevention to develop policies     Pesticide Programs to
       and procedures that identify       develop policies and
       when accounts receivable           procedures that identify when
       should be recorded for             accounts receivable should
       nonpayment of PRIA fees.           be recorded for nonpayment
                                          of PRIA fees.


 4.    Create an accounting model in      4.1 OCFO/OFM will               OCFO/OFM/       01/11/2012
       the financial system for PRIA      establish General Ledger           RAS        (COMPLETED)
       allowances and possible write-     posting models in Compass
       offs.                              for PRIA allowances (SV41)
                                          and possible write-offs
                                          (CWR13).




       12-1-0522

Rec.                                                                           Action       Estimated
           OIG Recommendation                Proposed Corrective Action
No.                                                                            Official   Completion Date

 5.    Develop a routine process to          5.1 OCSPP/OPP has changed        OCSPP/OPP     07/31/2012
       ensure that its staff is trained on   its procedures with respect to
       accounting policies and               establishing accounts
       procedures relating to sending        receivable for PRIA actions
       documents to the finance              that are rejected for non-
       centers for recording accounts        payment of the required
       receivable.                           PRIA fee.




       12-1-0522

                                                                                   Appendix C
                                      Distribution
Office of the Administrator
Chief Financial Officer
Acting Assistant Administrator for Chemical Safety and Pollution Prevention
Assistant Administrator for Administration and Resources Management
Deputy Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intragovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution Prevention
Deputy Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution
       Prevention
Senior Advisor, PRIA Implementation, Office of Pesticide Programs, Office of Chemical Safety
        and Pollution Prevention
Director, Biopesticides and Pollution Prevention Division, Office of Pesticide Programs, Office
       of Chemical Safety and Pollution Prevention
Director, Pesticide Re-Evaluation Division, Office of Pesticide Programs, Office of Chemical
       Safety and Pollution Prevention
Director, Registration Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Antimicrobials Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Information Technology and Resources Management Division, Office of Pesticide
       Programs, Office of Chemical Safety and Pollution Prevention
Director, Office of Human Resources, Office of Administration and Resources Management
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Acting Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of Financial Services, Office of the
         Chief Financial Officer
Staff Director, Accountability and Control Staff, Office of Financial Services, Office of the Chief
       Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Administration and Resources Management
PRIA Audit Coordinator, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention


12-1-0522

